No. _______

In The

Supreme Court of the United States
ROSA ELBA VENTURA DE PAULINO,
v.

Petitioner,

NEW YORK CITY DEPARTMENT OF EDUCATION,
NEW YORK STATE EDUCATION DEPARTMENT,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit

APPENDIX

Karl J. Ashanti, Esq.
Counsel of Record
Rory Bellantoni, Esq.
BRAIN INJURY RIGHTS GROUP, LTD.
300 East 95th Street, Suite 130
New York, New York 10128
(646) 850-5035
karl@pabilaw.org
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

TABLE OF CONTENTS

Page

Opinion of the United States Court of Appeals
for the Second Circuit, filed May 18, 2020 .............. A1
Memorandum Decision and Order of the United
States District Court, Southern District of New
York, filed May 31, 2019 ........................................ A36
Order on Rehearing of the United States Court
of Appeals for the Second Circuit, filed June 22,
2020 ........................................................................ A42

i

A1

In the
United States Court of Appeals
for the Second Circuit
____________
AUGUST TERM 2019
No. 19-1662-cv
ROSA ELBA VENTURA DE PAULINO,
INDIVIDUALLY AND AS P/N/G OF R.P.,
Plaintiff-Appellant,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION AND NEW YORK STATE
EDUCATION DEPARTMENT
Defendants-Appellees,
ROBERT BRIGILIO,
Defendant.
______________
On Appeal from the United States District Court
for the Southern District of New York
______________

A2
No. 19-1813-cv
MARIA NAVARRO CARRILLO, AS PARENT AND
NATURAL GUARDIAN OF M.G. AND
INDIVIDUALLY; JOSE GARZON, AS PARENT
AND NATURAL GUARDIAN OF M.G. AND
INDIVIDUALLY,
Plaintiffs-Appellees,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellant.*
____________
On Appeal from the United States District Court
for the Southern District of New York
____________
ARGUED: JANUARY 28, 2020
DECIDED: MAY 18, 2020
____________
Before: LEVAL, CABRANES, AND SACK, Circuit
Judges.
The plaintiffs in these tandem cases, parents of
students with disabilities (“Parents”), chose to
withdraw their children (“Students”) from one private
school and to enroll them in a new private school.
Shortly after, the Parents initiated administrative
____________________

* The Clerk of Court is directed to amend the official caption as
shown above.

A3
proceedings to challenge the adequacy of the
Students’ individualized educational programs
(“IEPs”), written statements developed by a local
committee on special education that set out, among
other things, the Students’ educational needs and
the services that must be provided to meet those
needs. The Parents sued the New York City
Department of Education (“City”) under the
Individuals with Disabilities Education Act to obtain
public funding for the new school’s tuition and
services during the pendency of those proceedings.
In the first case, Ventura de Paulino v. New York
City Department of Education, No. 19-1662-cv,
Plaintiff-Appellant Rosa Elba Ventura de Paulino
appeals from an order denying her application for a
preliminary injunction and from a final judgment
entered on May 31, 2019, in the United States
District Court for the Southern District of New York
(George B. Daniels, Judge), dismissing her lawsuit.
In the second case, Navarro Carrillo v. New York
City Department of Education, No. 19-1813-cv, the
City appeals from an order entered on June 13, 2019,
in the United States District Court for the Southern
District of New York (Colleen McMahon, Chief
Judge), granting an application by PlaintiffsAppellees Maria Navarro Carrillo and Jose Garzon
for a preliminary injunction directing the City to pay
for the new school’s tuition and educational services.
Although these tandem cases come to us in
different procedural postures, the question presented
on appeal is the same: whether parents who
unilaterally enroll their child in a new private school
and challenge the adequacy of the child’s IEP are
entitled to public funding for the new school during
the pendency of the IEP dispute, on the basis that

A4
the educational program being offered at the new
school is substantially similar to the program that
was last agreed upon by the parents and the school
district and was offered at the previous school.
On de novo review, we conclude that such
parents are not entitled to public funding because it
is the school district, not the parents, who has the
authority to decide how a child’s last agreed-upon
educational program is to be provided at public
expense during the pendency of the child’s IEP
dispute.
Accordingly, the May 31, 2019 judgment in favor
of the City in Ventura de Paulino is AFFIRMED.
And the June 13, 2019 order granting the
application for preliminary injunction against the
City in Navarro Carrillo is VACATED, and the
cause REMANDED with instructions to dismiss the
complaint for failure to state a claim upon which
relief can be granted.
_____________
KARL J. ASHANTI (Peter G. Albert, on the brief),
Brain Injury Rights Group, Ltd., New York, NY, for
Plaintiff-Appellant in Ventura de Paulino, and
KARL J. ASHANTI (Peter G. Albert, on the brief),
Brain Injury Rights Group, Ltd., New York, NY, for
Plaintiffs-Appellees in Navarro Carrillo.
ERIC LEE, Assistant Corporation Counsel (Richard
Dearing and Scott Shorr, on the brief), for James E.
Johnson, Corporation Counsel of the City of New
York, New York, NY, for City Defendant-Appellee in
Ventura de Paulino, and ERIC LEE, Assistant
Corporation Counsel (Richard Dearing and Scott

A5
Shorr, on the brief), for James E. Johnson,
Corporation Counsel of the City of New York, New
York, NY, for Defendant-Appellant in Navarro
Carrillo.
BLAIR J. GREENWALD, Assistant Solicitor General
(Barbara D. Underwood, Solicitor General, and
Steven C. Wu, Deputy Solicitor General, on the
brief), for Letitia James, Attorney General, State of
New York, New York, NY, for State DefendantAppellee in Ventura de Paulino.
_____________
JOSÉ A. CABRANES, Circuit Judge:
The plaintiffs in these tandem cases, parents of
students with disabilities (“Parents”), chose to
withdraw their children (“Students”) from one
private school and to enroll them in a new private
school. Shortly after, the Parents initiated
administrative proceedings to challenge the
adequacy of the Students’ individualized education
programs (“IEPs”), written statements developed by
a local committee on special education that set out,
among other things, the Students’ educational needs
and the services that must be provided to meet those
needs.1 The Parents also sued the New York City
More specifically, the IEP is “a written statement that
sets out the child’s present educational performance,
establishes annual and short-term objectives for improvements
in that performance, and describes the specially designed
instruction and services that will enable the child to meet those
objectives.” M.H. v. N.Y. City Dep’t of Educ., 685 F.3d 217, 224
(2d Cir. 2012) (internal quotation marks and citation omitted).
The State of New York “has assigned responsibility for
developing appropriate IEPs to local Committees on Special
1

A6
Department of Education (“City”) under the
Individuals with Disabilities Education Act
(“IDEA”)2 to obtain public funding for the new
school’s tuition and services during the pendency of
the Students’ IEP disputes.
In the first case, Ventura de Paulino v. New York
City Department of Education, No. 19-1662-cv,
Plaintiff-Appellant Rosa Elba Ventura de Paulino
(“Ventura de Paulino”) appeals from an order
denying her application for a preliminary injunction
and from a final judgment entered on May 31, 2019,
in the United States District Court for the Southern
District of New York (George B. Daniels, Judge),
dismissing her lawsuit. In the second case, Navarro
Carrillo v. New York City Department of Education,
No. 19-1813-cv, the City appeals from an order
entered on June 13, 2019, in the United States
District Court for the Southern District of New York
(Colleen McMahon, Chief Judge), granting an
application by Plaintiffs-Appellees Maria Navarro
Carrillo (“Navarro Carrillo”)3 and Jose Garzon

Education . . ., the members of which are appointed by school
boards or the trustees of school districts.” Id. (internal
quotation marks and citation omitted); see also N.Y. Educ. Law
§ 4402(1)(b)(1).
2

20 U.S.C. §§ 1400–1482.

The record reveals that the name of Plaintiff-Appellee is
Maria Navarro Carrillo, not Maria Navarro Carrilo as referred
to by counsel. We note that “Carrillo,” unlike “Carrilo,” is a
common Hispanic surname. Indeed, the administrative
proceedings and school enrollment documents correctly identify
her surname as “Navarro Carrillo,” see, e.g., Navarro Carrillo
Joint App’x at 80, 83, 89, 143. The name was changed to
“Carrilo,” a misspelling of her maternal surname, by her
3

A7
(“Garzon”) for a preliminary injunction directing the
City to pay for the new school’s tuition and
educational services.4
Although these tandem cases come to us in
different procedural postures, they present the same
material facts and legal issues. The Students’
educational program that was last agreed upon by
the City and the Parents in the end of the 2017-2018
school year listed the International Academy of Hope
(“iHOPE”), a private school, as the Students’
educational provider. Prior to the beginning of the
2018-2019 school year, the Parents unilaterally
enrolled the Students in a new private school, the
counsel when filing the complaint. The misspelled name was
used throughout the litigation of her case.
Because there appears to be some confusion in the briefs
as to the correct surname of the Parents in these tandem cases,
we take this opportunity to recall the proper usage of Hispanic
names and surnames. As a general rule, according to Spanish
naming conventions, Hispanics typically have two surnames.
The first last name is the father’s family name, and the second
last name is the mother’s paternal family name. A person may
be “known by merely his father’s name, as in English; still in
all formal cases,” or where the father’s name is common, the
mother’s name is often used in addition to the father’s name.
MARATHON MONTROSE RAMSEY, A TEXTBOOK OF
MODERN SPANISH, AS NOW WRITTEN AND SPOKEN IN
CASTILE AND THE SPANISH AMERICAN REPUBLICS 678
(Rev. New York: H. Holt and Co. 1958) (Orig. Publ. 1894); see
also Wendy Squires, A Short Guide to Establishing a
Multilingual Practice, 50 No. 6 PRAC. LAW. 31, 33 (2004).
Here, with respect to Ms. Maria Navarro Carrillo, we assume
based on the record that her father’s last name is “Navarro”
and her mother’s paternal family name is “Carrillo.” Therefore,
for purposes of her legal identification, the last name of Maria
Navarro Carrillo is “Navarro Carrillo,” or just “Navarro.”
Referring to her as “Carrillo,” or to the family as the “Carrillos,”
is incorrect.
4

A8
International Institute for the Brain (“iBRAIN”). On
appeal, the Parents contend that the City is
obligated to pay for the Students’ tuition at iBRAIN
because
iBRAIN’s
educational
program
is
substantially similar to the program that was offered
at iHOPE, which the City consented to and paid for.
The question presented in these cases is one of
first impression: whether under the “stay-put”
provision of the IDEA parents who unilaterally
enroll their child in a new private school and
challenge the child’s IEP are entitled to public
funding for the new school during the pendency of
the IEP dispute, on the basis that the educational
program being offered at the new school is
substantially similar to the program that was last
agreed upon by the parents and the school district
and was offered at the previous school. More
fundamentally stated, we must determine whether
the fact that the school district has authority to
decide how the child’s agreed-upon educational
program is to be provided during the pendency of an
IEP dispute means that the parents also have such
authority.
In the circumstances presented, we conclude, on
de novo review, that parents are not entitled to such
public funding because it is generally up to the
school district to determine how an agreed-upon
program is to be provided during the pendency of the
IEP dispute. Regardless of whether iBRAIN’s
educational program is substantially similar to that
offered previously at iHOPE, the IDEA does not
require the City to fund the Students’ program at
iBRAIN during the pendency of their IEP dispute;
when the Parents unilaterally enrolled the Students

A9
at iBRAIN, the Parents did so at their own financial
risk.
Accordingly, in Ventura de Paulino, we AFFIRM
the May 31, 2019 judgment of the District Court in
favor of the defendant school system; in Navarro
Carrillo, we VACATE the District Court’s June 13,
2019 order granting the application for a
preliminary injunction against the school system
and REMAND the cause with instructions to
dismiss the complaint for failure to state a claim
upon which relief can be granted.5
I. BACKGROUND
A. The IDEA’s Legal Framework
The IDEA authorizes the disbursement of
federal funds to States6 that develop appropriate
plans to, among other things, provide a free and
appropriate public education (“FAPE”) to children
with disabilities.7 To provide a FAPE to each student
A third case presenting the same legal question, see
Mendez v. New York City Department of Education, No. 191852-cv, was argued before this Court on the same day,
January 28, 2020, along with these tandem cases. We have
disposed of the appeal in Mendez by summary order filed
simultaneously herewith, in which we dismiss the case for lack
of appellate jurisdiction. Of course, upon the issuance of the
mandate in Ventura de Paulino and Navarro Carrillo, our
analysis in this opinion will bind the District Court in Mendez.
5

“The term ‘State’ [in the IDEA] means each of the 50
States, the District of Columbia, the Commonwealth of Puerto
Rico, and each of the outlying areas.” 20 U.S.C. § 1401(31).
6

See Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy,
548 U.S. 291, 295 (2006); see also 20 U.S.C. § 1412(a)(1)(A).
7

A10
with a disability, a school district must develop an
IEP that is “reasonably calculated to enable the child
to receive educational benefits.”8 The IEP must
identify the student’s “particular educational needs .
. . and the services required to meet those needs.”9
The IDEA also requires participating States to
develop an administrative review process for parents
who are dissatisfied with their child’s education and
wish to challenge the adequacy of the child’s IEP.10
To that effect, the State of New York “has
implemented a ‘two-tier system of administrative
review.’”11 In the first tier, a parent can file an
administrative “due process complaint” challenging
the IEP and requesting a hearing before an
impartial hearing officer.12 The party aggrieved by
the hearing officer’s decision may then “proceed to
the second tier, ‘an appeal before a state review
officer.’”13 Once the state review officer makes a final
T.M. ex rel. A.M. v. Cornwall Cent. Sch. Dist., 752 F.3d
145, 151 (2d Cir. 2014) (quoting Bd. of Educ. v. Rowley, 458
U.S. 176, 207 (1982)).
8

Walczak v. Fla. Union Free Sch. Dist., 142 F.3d 119, 122
(2d Cir. 1998).
9

10

20 U.S.C. § 1415(b)(6)–(8).

Mackey ex rel. Thomas M. v. Bd. of Educ. for the
Arlington Cent. Sch. Dist., 386 F.3d 158, 160 (2d Cir. 2004)
(quoting Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 297
F.3d 195, 197 (2d Cir. 2002)).
11

Id. (citing N.Y. Educ. Law § 4404(1); 20 U.S.C. §
1415(f)).
12

Id. (quoting Murphy, 297 F.3d at 197) (citing N.Y. Educ.
Law § 4404(2); 20 U.S.C. § 1415(g)).
13

A11
decision, the aggrieved party may seek judicial
review of that decision in a state or federal trial
court.14
At the crux of these cases is a provision in the
IDEA known as the “pendency” or “stay-put”
It
provides
that,
while
the
provision.15
administrative and judicial proceedings are pending
and “unless the school district and the parents agree
otherwise,” a child must remain, at public expense,
“in his or her then-current educational placement.”16
The term “educational placement” refers “only to the
general type of educational program in which the
child is placed”17—i.e., “the classes, individualized
attention and additional services a child will
receive.”18
Parents who are dissatisfied with their child’s
education can “unilaterally change their child’s
placement during the pendency of review
proceedings”19 and can, for example, “pay for private
14

See id. (citing 20 U.S.C. § 1415(i)(2)).

15

See 20 U.S.C. § 1415(j).

Mackey, 386 F.3d at 160 (citing 20 U.S.C. § 1415(j)). The
IDEA’s implementing regulations under federal law, see 34
C.F.R. § 300.514(a) (“Child’s status during proceedings”), and
New York state law, see N.Y. Educ. L. § 4404(4)(a), impose the
same requirement.
16

Concerned Parents v. N.Y. City Bd. of Educ., 629 F.2d
751, 753 (2d Cir. 1980).
17

T.Y. v. N.Y. City Dep’t of Educ., 584 F.3d 412, 419 (2d
Cir. 2009).
18

Sch. Comm. of the Town of Burlington, Mass. v. Dep’t of
Educ. of Mass., 471 U.S. 359, 373–74 (1985) (“Burlington”); see
19

A12
services, including private schooling.”20 They “do so,”
however, “at their own financial risk.”21 They can
obtain retroactive reimbursement from the school
district after the IEP dispute is resolved, if they
satisfy a three-part test that has come to be known
as the Burlington-Carter test.22 A parent can obtain
such reimbursement if: “(1) the school district’s
proposed placement violated the IDEA” by, for
example, denying a FAPE to the student because the
IEP was inadequate; (2)“the parents’ alternative
private placement was appropriate”; and (3)
“equitable considerations favor reimbursement.”23
B.
The
Parties’
Relationship
Administrative Proceedings

and

Ventura de Paulino is the mother of R.P., and
Navarro Carrillo and Garzon are the parents of M.G.
Both Students, R.P. and M.G., are minors with
disabilities stemming from acquired brain injuries,
who are entitled to a FAPE under the IDEA. During
the 2017-2018 academic year, the Students were
unilaterally enrolled by the Parents at iHOPE, a
also Florence Cty. Sch. Dist. Four v. Carter, 510 U.S. 7, 15
(1993) (“Carter”).
T.M., 752 F.3d at 152 (citations omitted); see also R.E. v.
N.Y. City Dep’t of Educ., 694 F.3d 167, 175 (2d Cir. 2012).
20

21

Burlington, 471 U.S. at 374.

E.M. v. N.Y. City Dep’t of Educ., 758 F.3d 442, 451 (2d
Cir. 2014).
22

T.M., 752 F.3d at 152 (citations omitted); see also E.M.,
758 F.3d at 451.
23

A13
private school. The Parents filed due process
complaints alleging that the Students’ IEPs
proposed by the local committee on special education
for that school year was inadequate and that
iHOPE’s IEP was appropriate for the Students.
In both instances—in June 2018 in the case of
R.P., and in April 2018 in the case of M.G.—
impartial hearing officers determined that: (1) the
City had failed to provide the Students with a FAPE
in violation of the IDEA; (2) the Parents’ alternative
placement at iHOPE for the 2017-2018 school year
was appropriate; and (3) equitable considerations
favored reimbursement to the Parents. The
impartial hearing officers ordered the City to
reimburse the Parents for the expenses incurred at
iHOPE during the 2017-2018 school year and
ordered the local committee on special education to
draft a new IEP that incorporates all the items of
iHOPE’s IEP. The City did not appeal.
Following the reimbursement orders, in or
around June 2018, the Parents unilaterally enrolled
the Students at iBRAIN, a newly created private
school, for the 2018-2019 school year. On July 9,
2018, the Students’ first day at iBRAIN, the Parents
filed a due process complaint alleging that the City
continued to fail to provide the Students with a
FAPE for the new school year. In that complaint, the
Parents asked for an order pursuant to the IDEA’s
stay-put provision directing the City to fund the
Students’ placement at iBRAIN during the pendency
of the proceedings.
On November 22, 2018, the impartial hearing
officer in R.P.’s proceeding denied the request for a
pendency order and concluded that, consistent with
the June 2018 administrative order that the City did

A14
not appeal, iHOPE was R.P.’s pendency placement.
Although Ventura de Paulino quickly appealed the
interim decision to a state review officer, she did not
wait for a final decision and filed a complaint in the
district court.
On March 5, 2019, the impartial hearing officer
in M.G.’s proceeding denied the request for a
pendency order on the basis that iBRAIN and
iHOPE were not substantially similar and that
M.G.’s pendency placement remained at iHOPE.
Navarro Carrillo and Garzon did not appeal the
interim decision to a state review officer. Instead,
they too filed their own complaint in the district
court.
C. District Court Proceedings
On January 9, 2019, Ventura de Paulino filed
her complaint seeking, among other things, a
preliminary injunction requiring the City to pay for
R.P.’s iBRAIN tuition and services. On March 20,
2019, the District Court rejected the City’s argument
that Ventura de Paulino was required to exhaust
New York’s two-tier review process, but denied her
application for emergency relief.24 On May 31, 2019,
the District Court granted the City’s motion to
dismiss the complaint for failure to state a claim
upon which relief can be granted, as well as the
motion to dismiss by co-defendant State of New

See Ventura de Paulino v. N.Y. City Dep’t of Educ., No.
19-cv-222 (GBD), 2019 WL 1448088, at *1, 5–7 (S.D.N.Y. Mar.
20, 2019), reconsideration denied sub nom. Ventura De Paulino
v. N.Y. City Dep’t of Educ., No. 19-cv-222 (GBD), 2019 WL
2498206 (S.D.N.Y. May 31, 2019).
24

A15
York.25 Final judgment dismissing the case was
entered on the same day.26
On April 2, 2019, Navarro Carrillo and Garzon
filed their complaint seeking the exact same remedy
sought by Ventura de Paulino. On June 13, 2019,
after concluding that iHOPE and iBRAIN were
substantially similar, the District Court granted the
requested preliminary injunction and vacated the
March 2019 Interim Order by the impartial hearing
officer in M.G.’s proceeding.27 The District Court
ordered the City to pay for M.G.’s education at
iBRAIN during the pendency of M.G.’s FAPE
proceeding.28
These appeals followed. In Navarro Carrillo, the
District Court granted the City’s motion to stay the
order of preliminary injunction pending the City’s
interlocutory appeal.

See Ventura De Paulino v. N.Y. City Dep’t of Educ., No.
19-cv-222 (GBD), 2019 WL 2499204, at *1–3 (S.D.N.Y. May 31,
2019).
25

On appeal, Ventura de Paulino’s reply brief belatedly
objects to the dismissal of the State of New York, but her
failure to raise the objection in her opening brief waived any
challenge to the District Court’s dismissal. See EDP Med.
Computer Sys., Inc. v. United States, 480 F.3d 621, 625 n.1 (2d
Cir. 2007). In any event, any such challenge to the dismissal
would be meritless, since Ventura de Paulino’s complaint does
not plausibly allege any claims against the State of New York,
or even seek any relief from it.
26

Navarro Carrilo v. N.Y. City Dep’t of Educ., 384 F. Supp.
3d 441, 459–65 (S.D.N.Y. 2019).
27

28

Id. at 465.

A16
D. Unfamiliar Litigation and a Curious Set
of Facts
Before proceeding to analyze the Parents’ claims,
we would be remiss not to emphasize the somewhat
unusual set of facts presented in these tandem cases,
which in turn have given rise to an unfamiliar
pattern of IDEA litigation. To our knowledge, these
tandem cases are just two of approximately 23 cases
presenting similar, if not virtually identical, legal
questions in our Court and in the Southern District
of New York. In these cases, the parents or natural
guardians of the students with disabilities
transferred their children from iHOPE to iBRAIN
for the 2018-2019 school year without the City’s
consent and are now claiming that they are entitled
to an order requiring the City to pay for the
educational services at iBRAIN on a pendency basis.
The vast majority, if not all, of these plaintiffs are
represented by the Parents’ counsel in these tandem
cases.
The
arguably
unusual
circumstances
surrounding the mass exodus of students from
iHOPE to iBRAIN were thoroughly described by
Judge Jesse M. Furman of the Southern District of
New York in one of the many iHOPE-to-iBRAINpendency cases.29 It has been alleged that, during
the summer of 2018, there was a “’split between the
While tangential to our disposition of the Parents’ legal
claims, we rely on Judge Furman’s summary as an interesting
backdrop for our analysis set forth below. See Ferreira v. N.Y.
City Dep’t of Educ., No. 19-cv-2937 (JMF), 2020 WL 1158532, at
*2 n.1 (S.D.N.Y. Mar. 6, 2020) (denying the parent’s motion for
summary judgment and application for preliminary injunction,
and granting the City’s cross-motion for summary judgment),
appeal filed No. 20-908-cv (2d Cir. Mar. 13, 2020).
29

A17
original founders and some of the [iHOPE] board’
over whether [iHOPE] should admit students with
disabilities besides traumatic brain injuries,”30 and
that “‘the original founders and some of the
administration w[ere] ousted’ from [iHOPE].”31
Donohue left iHOPE and became the founder and
registered agent of iBRAIN.32 Donohue also happens
to be the founder of the Brain Injury Rights Group,33
the law firm representing the Parents in these
tandem cases and the other plaintiffs seeking public
funding from the City for iBRAIN’s tuition and
related services.
II. DISCUSSION
A. Standard of Review
We review a district court’s grant of a motion to
dismiss a complaint de novo, “credit[ing] all nonconclusory factual allegations in the complaint and
draw[ing] all reasonable inferences in [the plaintiffs’]

Id. (quoting Fiallos v. N.Y. City Dep’t of Educ., No. 19-cv334 (JGK) (S.D.N.Y. Sept. 16, 2019), ECF No. 59, at 6-7, appeal
filed No. 19-1330-cv (2d Cir. May 3, 2019)).
30

Id. (quoting Mendez v. N.Y. City Dep’t of Educ., No. 19CV-2945 (DAB) (S.D.N.Y. Sept. 20, 2019), ECF No. 27, at 6-7,
17, appeal filed No. 19-1852-cv (2d Cir. June 24, 2019)).
31

Id. (quoting Navarro Carrilo, 384 F. Supp. 3d at 447,
450 (alteration omitted)) (citing Docket No. 19-cv-2937, ECF
No. 33, at 11 & n.9, 169).
32

Id. (citing Donohue v. N.Y. City Dep’t of Educ., No. 18CV-9364 (DAB) (S.D.N.Y. Oct. 18, 2018), ECF No. 7, ¶ 8; id.
ECF No. 34, at 2).
33

A18
favor,”34 to determine “whether such allegations and
inferences plausibly indicate [the plaintiffs’]
entitlement to relief.”35 Similarly, “questions of law
decided in connection with requests for preliminary
injunctions . . . receive the same de novo review that
is appropriate for issues of law generally.”36
Ordinarily, to obtain a preliminary injunction,
the movant has to “show (a) irreparable harm and
(b) either (1) likelihood of success on the merits or (2)
sufficiently serious questions going to the merits to
make them a fair ground for litigation and a balance
of hardships tipping decidedly toward the party
requesting the preliminary relief.”37 But where the
IDEA’s stay-put provision is implicated, the
provision triggers the applicability of an automatic
injunction designed to maintain the child’s
educational status quo while the parties’ IEP dispute
is being resolved.38
Loreley Fin. (Jersey) No. 3 Ltd. v. Wells Fargo Sec., LLC,
797 F.3d 160, 171 (2d Cir. 2015) (citing Nielsen v. Rabin, 746
F.3d 58, 62 (2d Cir. 2014)).
34

35

(2009)).

Id. (citing Ashcroft v. Iqbal, 556 U.S. 662, 678–80

Am. Express Fin. Advisors Inc. v. Thorley, 147 F.3d 229,
231 (2d Cir. 1998).
36

Citigroup Glob. Markets, Inc. v. VCG Special
Opportunities Master Fund Ltd., 598 F.3d 30, 35 (2d Cir. 2010).
37

See Zvi D. v. Ambach, 694 F.2d 904, 906 (2d Cir. 1982)
(stating that the stay-put provision “is, in effect, an automatic
preliminary injunction” that “substitutes an absolute rule in
favor of the status quo for the court’s discretionary
consideration of the factors of irreparable harm and either a
likelihood of success on the merits or a fair ground for litigation
and a balance of hardships”); see also Arlington Cent. Sch. Dist.
38

A19
Because we conclude on de novo review that the
Parents’ complaints fail to state a claim upon which
relief can be granted, we need not decide what
standard applies to the Parents’ request for
preliminary injunctive relief.39
B. Exhaustion of Administrative Remedies
The IDEA requires that any available
administrative remedies be exhausted before a
lawsuit is filed in federal court.40 There are,
however, some exceptions to the IDEA’s exhaustion
requirement.41 We have stated in the past that,
v. L.P., 421 F. Supp. 2d 692, 696 (S.D.N.Y. 2006) (“Pendency
has the effect of an automatic injunction, which is imposed
without regard to such factors as irreparable harm, likelihood
of success on the merits, and a balancing of the hardships.”).
Our conclusion that the Parents’ complaints fail to state
a claim is based on our review of the final judgment in Ventura
de Paulino. Because the Parents’ complaints are virtually
identical in all material respects, our affirmance of the
dismissal of Ventura de Paulino’s complaint necessarily means
that Navarro Carrillo and Garzon cannot succeed on the merits
of their pendency claim and that the District Court’s order of
preliminary injunction in their favor must be vacated.
39

See 20 U.S.C. § 1415(i)(2)(A) (providing a cause of action
in federal or state court to any party “aggrieved” by a “final”
decision of either an impartial hearing officer, if the state does
not have an appeals process, or the state review officer, if it
does); accord J.S. v. Attica Cent. Sch., 386 F.3d 107, 112 (2d
Cir. 2004).
40

“[E]xhaustion is not necessary if (1) it would be futile to
resort to the IDEA’s due process procedures; (2) an agency has
adopted a policy or pursued a practice of general applicability
that is contrary to the law; or (3) it is improbable that adequate
relief can be obtained by pursuing administrative remedies.”
41

A20
unless an exception applies, the exhaustion of
administrative remedies under the IDEA is a
“jurisdictional prerequisite”42 of the statute and that
a “plaintiff’s failure to exhaust . . . deprives a court of
subject matter jurisdiction” over any IDEA claims.43
Although we have questioned more recently the
supposed jurisdictional nature of the exhaustion
requirement,44 because we are arguably bound by
those earlier statements and because, in all but the
rarest of cases, we “must determine that [we] have
jurisdiction before proceeding to the merits” of a
claim,45 we first consider the City’s argument that
Murphy, 297 F.3d at 199 (citing Mrs. W. v. Tirozzi, 832 F.2d
748, 756 (2d Cir. 1987)).
42

Id.

Polera v. Bd. of Educ. of Newburgh Enlarged City Sch.
Dist., 288 F.3d 478, 483 (2d Cir. 2002).
43

In Coleman v. Newburgh Enlarged City School District,
we noted that our precedent has not been entirely clear on
whether the IDEA’s exhaustion requirement is a jurisdictional
prerequisite or a mandatory claim-processing rule. 503 F.3d
198, 203 (2d Cir. 2007); accord Paese v. Hartford Life Accident
Ins. Co., 449 F.3d 435, 444 n.2 (2d Cir. 2006). Unlike a
jurisdictional prerequisite, the affirmative defense that a party
has failed to satisfy a mandatory claim-processing rule is
subject to the doctrines of waiver and forfeiture. See Coleman,
503 F.3d at 203. Like in Coleman, however, “we are not forced
to decide whether our precedent [in Polera and Murphy], which
labels the IDEA’s exhaustion requirement as a rule affecting
subject matter jurisdiction rather than an ‘inflexible claimprocessing’ rule that may be waived or forfeited, remains good
law . . . because there can be no claim of waiver or forfeiture
here.” Id. at 204.
44

Lance v. Coffman, 549 U.S. 437, 439 (2007); see also
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94 (1998);
45

A21
dismissal is appropriate because the Parents failed
to exhaust their administrative remedies.
The City contends that the Parents were
required to wait for a ruling by a state review officer
before filing their complaints in federal court. But
that argument ignores the fact that where “an action
alleg[es a] violation of the stay-put provision,” such
action “falls within one, if not more, of the
enumerated exceptions” to the IDEA’s exhaustion
requirement.46 That is clearly the case here. The
Parents’ complaints allege that the City’s failure to
pay for the Students’ services at iBRAIN violates the
stay-put provision of the IDEA.
The City also contends that the Parents cannot
rely on the stay-put provision to circumvent the
IDEA’s exhaustion requirement because the City has
not violated the stay-put provision. That argument
also fails, as it conflates the merits inquiry of
whether the Parents have stated a claim upon which
relief can be granted with the arguable threshold
inquiry of whether the Parents needed to exhaust
their administrative remedies. Because the Parents
allege that the City’s failure to pay for the Students’
but see Ctr. for Reprod. Law and Policy v. Bush, 304 F.3d 183,
195 (2d Cir. 2002) (recognizing a discretionary exception to
Steel Co. on the basis that a court, in very rare circumstances,
“may dispose of the case on the merits without addressing a
novel question of jurisdiction”).
Murphy, 297 F.3d at 199; accord Doe v. E. Lyme Bd. of
Educ., 790 F.3d 440, 455 (2d Cir. 2015). As we explained in
Murphy, “given the time-sensitive nature of the IDEA’s stayput provision,” and the amount of time it would take a plaintiff
to exhaust the administrative process, “an immediate appeal is
necessary to give realistic protection to the claimed right.” 297
F.3d at 199 (citation and quotation marks omitted).
46

A22
services at iBRAIN violates the stay-put provision of
the IDEA, the Parents are not required to satisfy the
IDEA’s exhaustion requirement.
C. The IDEA’s Stay-Put Provision
The IDEA’s stay-put provision provides in
relevant part that “during the pendency of any
[administrative and judicial] proceedings conducted
pursuant to this section, unless the [school district] .
. . and the parents otherwise agree, the child shall
remain in the then-current educational placement of
the child.”47 We have interpreted this provision to
require a school district “to continue funding
whatever educational placement was last agreed
upon for the child until the relevant administrative
and judicial proceedings are complete.”48 To that
effect, although we may not have previously stated
the proposition clearly, the IDEA does not authorize
a school district to recoup payments made for
educational services pursuant to the stay-put
provision (i.e., pendency services).49 As reflected in
47

20 U.S.C. § 1415(j).

48

T.M., 752 F.3d at 171 (citing Mackey, 386 F.3d at 163).

See Mackey, 386 F.3d at 160–61, 165–66 (explaining that
school districts are required to pay for a child’s pendency
placement regardless of who prevails in the IEP dispute and
authorizing an award for pendency services even after parents
lost their IEP dispute for the relevant school year). District
courts in this Circuit also have noted repeatedly that “a school
district has no right under the [IDEA] to recoup pendency
tuition payment from a parent.” N.Y. City Dep’t of Educ. v. S.S.,
No. 09-cv-810 (CM), 2010 WL 983719, at *9 (S.D.N.Y. March
17, 2010); see, e.g., N.Y. City Dep’t of Educ. v. V.S., No. 10-cv05120 (JG)(JO), 2011 WL 3273922, at *9 (E.D.N.Y. July 29,
49

A23
the text of the provision and our cases, Congress’s
policy choice was that a child is entitled to remain in
his or her placement at public expense during the
pendency of an IEP dispute, regardless of the merit
of the child’s IEP challenge or the outcome of the
relevant proceedings.50
Where, as here, the stay-put provision is
invoked, our inquiry generally focuses on identifying
the child’s “then-current educational placement,” as
it is the only educational program the school district
is obligated to pay for during the pendency of an IEP
dispute.51 The term “then-current educational
placement” in the stay-put provision typically refers
to the child’s last agreed-upon educational program
before the parent requested a due process hearing to
challenge the child’s IEP.52 Under the IDEA, an
initial placement is made by the school district upon
the consent of the parent.53 A child’s educational
2011); E. Z.-L. ex rel. R.L. v. N.Y. City Dep’t of Educ., 763 F.
Supp. 2d 584, 599 (S.D.N.Y. 2011); C.G. ex rel. B.G. v. N.Y. City
Dep’t of Educ., 752 F. Supp. 2d 355, 361 (S.D.N.Y. 2010);
Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 86 F. Supp.
2d 354, 367 n.9 (S.D.N.Y. 2000).
See Mackey, 386 F.3d at 160–61; see also Susquenita
Sch. Dist. v. Raelee S., 96 F.3d 78, 83 (3d Cir. 1996), cited with
approval in Mackey, 386 F.3d at 161.
50

51

See Mackey, 386 F.3d at 163; Zvi D., 694 F.2d at 906.

See, e.g., T.M., 752 F.3d at 171; Mackey, 386 F.3d at 163;
Zvi D., 694 F.2d at 906.
52

20 U.S.C. § 1415(j) (“[I]f applying for initial admission to
a public school, [the child] shall, with the consent of the
parents, be placed in the public school program until all such
proceedings have been completed.”).
53

A24
placement (or program) may be changed if, for
example, the school district and the parents agree on
what the new placement should be. The placement
can also be changed if an impartial hearing officer or
state review officer finds the parents’ new placement
to be appropriate by adjudicating the IEP dispute in
the parents’ favor, and the school district chooses not
to appeal the decision.54 Accordingly, implicit in the
concept of “educational placement” in the stay-put
provision (i.e., a pendency placement) is the idea
that the parents and the school district must agree
either expressly or as impliedly by law to a child’s
educational program.
When the impartial hearing officers in these
tandem cases concluded that iHOPE was an
appropriate placement for the Students and the City
chose not to appeal the ruling to a state review
officer, the City consented, by operation of law, to
the Students’ private placement at iHOPE. At that
moment, the City assumed the legal responsibility to
pay for iHOPE’s educational services to the Students
as the agreed-upon educational program that must
be provided and funded during the pendency of any
IEP dispute. What is in dispute here, however, is
whether the stay-put provision requires the City to
pay for the educational services being provided to
the Students at the new school, iBRAIN.
The stay-put provision does not guarantee a
child with a disability “the right to remain in the
exact same school with the exact same service
See Mackey, 386 F.3d at 163; see also Bd. of Educ. v.
Schutz, 290 F.3d 476, 484 (2d Cir. 2002) (“[O]nce the parents’
challenge [to a proposed IEP] succeeds . . ., consent to the
private placement is implied by law, and the requirements of §
1415(j) become the responsibility of the school district.”).
54

A25
providers while his administrative and judicial
proceedings are pending. Instead, it guarantees only
the same general level and type of services that the .
. . child was receiving.”55
With this in mind, the Parents first argue that,
because the educational program offered at iBRAIN
is arguably substantially similar to that offered at
iHOPE, the decision of the Parents to move the
Students to iBRAIN did not change the placement
for which the City is required to pay. In the
alternative, the Parents argue that the Students’
operative placement is at iBRAIN, since that is
where the Students were enrolled at the time that
the Parents initiated the administrative proceedings
challenging the Students’ IEPs for the 2018-2019
school year.
The Parents’ arguments focus on identifying the
pendency placement that the Students are entitled
to receive—the inquiry that, as stated above,
typically underlies most pendency disputes. The
parties’ dispute requires us, however, to answer a
different question: Does the fact that the City retains
authority to determine how the Students’ pendency
services are to be provided mean that the Parents
may also exercise that authority?
1. The Parents’ Primary Argument
The Parents’ argument that the Students’ new
enrollment at iBRAIN did not constitute a change in
the Students’ pendency placement is misplaced. In
Concerned Parents v. New York City Board of
Education, we concluded, albeit in a different
T.M., 752 F.3d at 171 (citing Concerned Parents, 629
F.2d at 753, 756).
55

A26
context, that the City’s transfer of children with
disabilities in special education classes at one school
to substantially similar classes at other schools
within the same school district did not result in a
change to the students’ educational placement.56
That conclusion, however, offers no solace to the
Parents’ pendency claims here.
Underlying the Parents’ primary argument is
the assumption that because a school district can
move a child to a new school that offers the same
general level and type of services without violating
the IDEA’s stay-put provision, a parent is likewise
authorized to invoke the stay-put provision to
require the school district to pay for a new school
identified by the parent so long as the new school
offers substantially similar educational services. Not
so.
For the reasons stated below, it is the City, not
the Parents, that is authorized to decide how (and
where) the Students’ pendency services are to be
provided.
a. First Reason: The IDEA’s Text and
Structure
We start by recognizing the well-settled principle
that “[b]y and large, public education in our Nation
is committed to the control of the state and local
authorities.”57 By choosing to accept federal funds
See Concerned Parents, 629 F.2d at 756 (rejecting claim
that there had been a change in the children’s educational
placement that triggered prior notice and hearing
requirements).
56

57

Epperson v. Arkansas, 393 U.S. 97, 104 (1968).

A27
under the IDEA, participating States do not
relinquish their control over public education,
including their authority to determine the
educational programs of students.58 Nor do States
agree to the wholesale transfer of that authority to
the parents of children with disabilities. Rather, by
accepting federal funds, States primarily agree to
establish procedures to ensure that a FAPE is
provided to children with disabilities.59 One of those
“procedural safeguards”60 is the right to pendency
services under the stay-put provision.61
The stay-put provision therefore was enacted as
a procedural safeguard in light of the school district’s
broad authority to determine the educational
program of its students. The provision limits that
authority by, among other things, preventing the
school district from unilaterally modifying a
student’s educational program during the pendency
See Tilton v. Jefferson Cty. Bd. of Educ., 705 F.2d 800,
804 (6th Cir. 1983) (“Congress did not compel, as the price for
federal participation in the education for the handicapped, a
wholesale transfer of authority over the allocation of
educational resources from the duly elected or appointed state
and local boards to the parents of individual handicapped
children.”), cited with approval in Fallis v. Ambach, 710 F.2d
49, 56 (2d Cir. 1983).
58

20 U.S.C. § 1415(a) (“Any State educational agency,
State agency, or local educational agency that receives
assistance under this subchapter shall establish and maintain
procedures in accordance with this section to ensure that
children with disabilities and their parents are guaranteed
procedural safeguards with respect to the provision of a free
appropriate public education by such agencies.”).
59

60

Id. § 1415 (entitled, “Procedural Safeguards”).

61

See id. § 1415(j).

A28
of an IEP dispute. It does not eliminate, however,
the school district’s preexisting and independent
authority to determine how to provide the mostrecently-agreed-upon educational program. As we
have recognized, “[i]t is up to the school district,” not
the parent, “to decide how to provide that
educational program [until the IEP dispute is
resolved], so long as the decision is made in good
faith.”62
If a parent disagrees with a school district’s
decision on how to provide a child’s educational
program, the parent has at least three options under
the IDEA: (1) The parent can argue that the school
district’s decision unilaterally modifies the student’s
pendency placement and the parent could invoke the
stay-put provision to prevent the school district from
doing so; (2) The parent can determine that the
agreed-upon educational program would be better
provided somewhere else and thus seek to persuade
the school district to pay for the program’s new
services on a pendency basis; or (3) The parent can
determine that the program would be better
provided somewhere else, enroll the child in a new
school, and then seek retroactive reimbursement
from the school district after the IEP dispute is
resolved.
That said, what the parent cannot do is
determine that the child’s pendency placement
would be better provided somewhere else, enroll the
child in a new school, and then invoke the stay-put
provision to force the school district to pay for the
new school’s services on a pendency basis. To hold
otherwise would turn the stay-put provision on its
T.M., 752 F.3d at 171 (citing Concerned Parents, 629
F.2d at 756).
62

A29
head, by effectively eliminating the school district’s
authority to determine how pendency services
should be provided.
Here, the Parents’ pendency claims seek to do
exactly that. The Parents and the City had agreed
that the Students’ educational program would be
provided at iHOPE. When apparently dissatisfied
with unspecified changes to iHOPE’s “management”
and “philosophy,” the Parents unilaterally decided
that iBRAIN was a better school for the Students.63
The Parents are certainly entitled to make that
decision for the benefit of their children, but in
claiming that the City must continue to pay for
iBRAIN’s services on a pendency basis, the Parents
effectively “seek a ‘veto’ over school choice rather
than ‘input’—a power the IDEA clearly does not
grant them.”64 Regardless of whether the
educational program that the Students are receiving
at iBRAIN is substantially similar to the one offered
at iHOPE, when the Parents unilaterally enrolled
the Students at iBRAIN for the 2018-2019 school
year, they did so at their own financial risk.65
At oral argument, counsel for the Parents generally
attributed the exodus of students from iHOPE to iBRAIN to
“changes in the management” and “philosophy” of iHOPE.
63

64

T.Y., 584 F.3d at 420.

We do not consider here, much less resolve, any question
presented where the school providing the child’s pendency
services is no longer available and the school district either
refuses or fails to provide pendency services to the child. Those
circumstances are not present here. We note, however, that at
least one of our sister Circuits has acknowledged that, under
certain extraordinary circumstances not presented here, a
parent may seek injunctive relief to modify a student’s
placement pursuant to the equitable authority provided in 20
65

A30
b. Second Reason: Cost of Pendency
Services
As a practical matter, it makes sense that it is
the party generally responsible for paying a
student’s agreed-upon educational program—here,
the City—who determines how the pendency
services are to be provided. That is so for two
reasons: (i) public funding for pendency services can
never be recouped; and (ii) the cost of educational
services in schools can vary dramatically.
i. Recoupment versus
reimbursement
One can imagine circumstances in which a
school district pays on a pendency basis for the
educational services of a private school selected
unilaterally by the parents, after which a court
decides in the school district’s favor, by holding that
the parents’ unilateral transfer modified the child’s
pendency placement, or that the school district’s
proposed IEP would have afforded the child a
FAPE.66 In these circumstances, the school district

U.S.C. § 1415(i)(2)(B)(iii). See Wagner v. Bd. of Educ. of
Montgomery Cty., 335 F.3d 297, 302–03 (4th Cir. 2003)
(involving a situation in which the pendency placement was no
longer available, and the school district had failed to propose
an alternative, equivalent placement).
Cf. S.S., 2010 WL 983719, at *1 (rejecting claim by the
City that it is entitled to be reimbursed for the payments made
“to advance the child[’s] . . . private school tuition during
hearing and appeal process” pursuant to the stay-put provision
in light of the state review officer’s final decision that the IEP
66

A31
would have no recourse under the IDEA to recoup
the sums it expended on the child.67 By contrast, if
the school district were found to have unilaterally
modified the child’s placement, the parent could seek
injunctive relief against the school district for
violating the IDEA.68
ii. Difference in educational costs
Dramatically different costs may be presented
when parents unilaterally choose to enroll their child
in a new school. Indeed, the cost of providing
pendency services in the new school may be
substantially higher than the cost of providing those
services at the previous school.69 Nothing in the

“proposed for the child would have afforded him a” FAPE for
the relevant school year).
See ante, note 49. This did not happen here only because
the District Court in Navarro Carrillo granted the City’s
motion to stay the order granting the application for a
preliminary injunction.
67

Cf. T.M., 752 F.3d at 172 (authorizing limited
reimbursement to parents in light of, among other things, the
fact that the school district refused to provide the child
pendency services in the first instance); Mackey, 386 F.3d at
165–66 (authorizing reimbursement for pendency services even
after parents lost their IEP dispute for the relevant school
year).
68

In these cases, neither the City nor the Parents
presented any evidence in the record about the cost of iBRAIN’s
services and how they compare to the cost of similar services at
iHOPE. At oral argument, however, counsel for the City
informed us, without contradiction, that the cost of attending
iBRAIN was significantly higher, and that the Parents had
69

A32
statutory text or legislative history of the IDEA,
however, “implies a legislative intent to permit” the
parents of children with disabilities “to utilize the
[stay-put provision’s] automatic injunctive procedure
. . . to frustrate the fiscal policies of participating
states.”70
c. Third Reason: Uncertainty of
Litigation
The Parents’ pendency claims seek to upend the
educational status quo that the stay-put provision
was enacted to protect. Under the Parents’ theory,
litigation at the outset of an IEP dispute seems
inevitable. The parties will need to rush to court to
obtain a ruling on an emergency basis on whether
the new school selected by the parent offers a
program that is substantially similar to the program
offered at the prior agreed-upon school. A provision
that guarantees the right of a child to stay put can
hardly justify the uncertainty inherent in a race to
the courthouse.
2. The Parents’ Alternative Argument
The Parents also argue that the City must pay
for iBRAIN’s services on a pendency basis because it
is the Students’ “operative placement” at the time
when the IEP proceedings were initiated. That
argument fails for all of the reasons stated above. A
parent cannot unilaterally transfer his or her child
disavowed the City’s transportation arrangement at iHOPE in
favor of a private transportation service arranged by iBRAIN.
70

Fallis, 710 F.2d at 56 (quoting Tilton, 705 F.2d at 804).

A33
and subsequently initiate an IEP dispute to argue
that the new school’s services must be funded on a
pendency basis. That argument effectively renders
the stay-put provision meaningless by denying any
interest of a school district in resolving how the
student’s agreed-upon educational program must be
provided and funded.
It bears recalling that the term “operative
placement” has its origin in cases where the school
district attempts to move the child to a new school
without the parents’ consent,71 or where there is no
previously implemented IEP so that the current
placement provided by the school district is
considered to be the pendency placement for
purposes of the stay-put provision.72 Neither
circumstance is presented here.
*

*

*

Although the stay-put provision prevents a
school district from modifying a student’s pendency
placement without the parents’ consent, it does not
prohibit the school district from determining how,
and where, a student’s pendency placement should
be provided. The Parents and the City had agreed
that the Students’ pendency placement should be
provided at iHOPE. When the Parents enrolled the
Students at iBRAIN, they did so at their own
financial risk; the Parents cannot determine
unilaterally how the Students’ educational program
Drinker v. Colonial Sch. Dist., 78 F.3d 859, 867 (3d Cir.
1996), cited with approval in Mackey, 386 F.3d at 163.
71

Thomas v. Cincinnati Bd. of Educ., 918 F.2d 618, 625–26
(6th Cir. 1990).
72

A34
is to be provided at the City’s expense. The Parents
having failed to plausibly allege a violation of the
stay-put provision and an entitlement to a pendency
order requiring the City to pay for iBRAIN’s
services, they may obtain retroactive reimbursement
for their expenses at iBRAIN only if they are able to
satisfy the three-factor Burlington-Carter test after
their IEP disputes are resolved. That question, if
ever presented, is one that we leave for another day.
III. CONCLUSION
To summarize, we conclude that:
(1) An action that alleges a violation of the stayput provision falls within one or more of the
exceptions to the exhaustion-of-administrativeremedies requirement of the Individuals with
Disabilities Education Act (“IDEA”).
(2) Because the Parents’ complaints allege that
the City’s failure to pay for the Students’ educational
services at the International Institute for the Brain
(“iBRAIN”) violates the IDEA’s stay-put provision,
the Parents were not required to exhaust their
administrative remedies.
(3) The stay-put provision of the IDEA, which
was enacted to limit a school district’s broad
authority to determine or modify a child’s
educational program without the parent’s consent,
does not eliminate the school district’s authority to
determine how, and where, a student’s agreed-upon
educational program is to be provided at public
expense during the pendency of a parental challenge
to the student’s individualized education program
(“IEP”) dispute.

A35
(4) The fact that the City retains authority to
determine how and where the Students’ mostrecently-agreed-upon educational program is to be
provided during the pendency of the Students’ IEP
disputes does not mean that the Parents may
exercise similar authority. The Parents are not
entitled to receive public funding under the stay-put
provision for a new school on the basis of its
purported substantial similarity to the last agreedupon placement.
(5) Accordingly, regardless of whether iBRAIN
provided the Students’ last agreed-upon educational
program in a manner substantially similar to
iHOPE, when the Parents unilaterally enrolled the
Students at iBRAIN, the Parents did so at their own
financial risk.
For the foregoing reasons, the District Court’s
May 31, 2019 judgment in Ventura de Paulino is
AFFIRMED; the District Court’s June 13, 2019
order granting the application for preliminary
injunction in Navarro Carrillo is VACATED and the
cause in Navarro Carrillo is REMANDED with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.

A36
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 222 (GBD)
FILED: MAY 31, 2019
____________
ROSA ELBA VENTURA DE PAULINO,
individually and as p/n/g of R.P.,
Plaintiff,
-againstNEW YORK CITY DEPARTMENT OF
EDUCATION, ROBERT BRIGLIO, and
NEW YORK STATE EDUCATION DEPARTMENT,
Defendants.
______________
MEMORANDUM DECISION
AND ORDER
GEORGE B. DANIELS, United States District
Judge:
Plaintiff, as the mother of R.P. a 7-year-old boy
who suffers from brain injury and other disabilities,
brought this action under the Individuals with
Disabilities Education Act ("IDEA"), 20 U.S.C. §§
1400-14910, and the New York Education Law§§
4404, 4410 against Defendants New York City
Department of Education ("NYCDOE"), New York
State Department of Education ("NYSED"), and

A37
Impartial Hearing Officer ("IHO") Robert Briglio1
(collectively, "Defendants"). (Compl., ECF No. 3, ¶¶
32-35.) She sought a temporary restraining order
and preliminary injunction declaring that R.P.'s
pendency placement for the 2018-2019 school year
lies at iBRAIN, and ordering immediate payment of
iBRAIN tuition and costs. (Id.) She also seeks a
judgment for equitable relief, damages, attorneys'
fees, and costs, "as a result of the failure or delay in
ordering that iBRAIN be deemed R.P. 's pendency
placement." (Id.)
On January 16, 2019, Plaintiff filed an
application for an order to show cause for a
temporary restraining order and a preliminary
injunction (1) to vacate IHO Briglio's Findings of
Fact and Decision on Pendency dated November 22,
2018, which denied R.P's pendency placement under
the IDEA at iBRAIN for the 2018-2019 school year,
and (2) to declare that iBRAIN is R.P.s pendency
placement for the 2018-2019 school year, and (3) to
immediately award payment to iBRAIN for the cost
of R.P.'s full tuition for the 2018-2019 school year.
(Order to Show Cause for Prelim. Injunction and
Temp. Restraining Order ("OSC Application"), ECF
No. 14, at 1-2.) On March 20, 2019, this Court denied
Plaintiffs OSC Application. (OSC Decision.)2
Plaintiff moved this Court on April 3, 2019 to
reconsider its OSC Decision. This Court denied
IHO Briglio was dismissed from this action because he
recused himself from Plaintiffs ongoing due process complaint
with the state administrative review board. (Mem. Decision
and Order ("OSC Decision"), ECF No. 54, n. l).
1

The relevant procedural and factual background is set forth in
the OSC Decision and incorporated by reference herein.
2

A38
Plaintiffs motion for reconsideration on May 31,
2019. (Mem. Decision and Order ("Reconsideration
Decision"), ECF No. 87.)
NYSED and NYCDOE move to dismiss Plaintiffs
complaint for failure to state claim under Federal
Rule of Civil Procedure 12(b)(6).3 (Notice of Mot. to
Dismiss the Compl., ECF No. 17; Notice of Mot. and
Req. for Oral Arg., ECF No. 60.) The motions to
dismiss are GRANTED.
I. LEGAL STANDARD
To survive a motion to dismiss pursuant to Rule
12(b)(6), a complaint must plead "enough facts to
state a claim to relief that is plausible on its face."
Brown v. Daikin Am. Inc., 756 F.3d 219,225 (2d Cir.
2014) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
554, 570 (2007)). "A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged."
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citation
omitted). While "the plausibility standard is not akin
to a probability requirement," id. (internal quotation
marks omitted), the plaintiff must "nudge[ ] [her]
claims across the line from conceivable to
plausible[.]" Twombly, 550 U.S. at 570.
A court must take "factual allegations [in the
complaint] to be true and draw [ ] all reasonable
inferences in the plaintiffs favor." Harris v. Mills,
NYSED also moves to dismiss Plaintiffs complaint for
insufficient process under Federal Rule of Civil Procedure
12(b)(5). Because this Court grants Defendants' 12(b)(6)
motions to dismiss for failure to state a claim, NYSED's motion
to dismiss for insufficient service is moot.
3

A39
572 F.3d 66, 71 (2d Cir. 2009) (citation omitted).
Legal conclusions, conversely, do not benefit from a
presumption of truth. See Iqbal, 556 U.S. at 678.
A district court must first review a plaintiff's
complaint to identify allegations that, "because they
are no more than conclusions, are not entitled to the
assumption of truth." Iqbal, 556 U.S. at 679. The
court then considers whether the plaintiff's
remaining well-pleaded factual allegations, assumed
to be true, "plausibly give rise to an entitlement to
relief." Id.; see also Targum v. Citrin Cooperman &
Co., LLP, No. 12 Civ. 6909, 2013 WL 6087400, at *3
(S.D.N.Y. Nov. 19, 2013). In deciding a 12(b)(6)
motion, the court also draws all reasonable
inferences in the non-moving party's favor. See NJ
Carpenters Health Fund v. Royal Bank of Scot. Grp.,
PLC, 709 F.3d 109, 119-20 (2d Cir. 2013).
II. PLAINTIFF'S CLAIMS ARE DISMISSED
The pertinent facts of this case are not in
dispute. Defendant NYCDOE argues that Plaintiff's
complaint fails to state a claim upon which relief
may be granted because this Court already
determined, as a matter of law, that Plaintiff "is not
entitled to the preliminary injunction and
declaration that she seeks in her complaint." (Mem.
of Law in Supp. of Def. N. Y. City Dept. of Educ.'s
Mot. to Dismiss the Compl., ("NYCDOE's Mem."),
ECF No. 61 at 3.) Indeed, Plaintiff's complaint seeks
the exact same injunctive relief that she sought in
her OSC Application, namely "that iBRAIN be
deemed R.P.'s pendency placement." (See Compl. ¶
135.) This Court already decided that, as a matter of
law, R.P.'s pendency placement for the 2018-2019

A40
school year lies at iHOPE, not iBRAIN. (See OSC
Decision at 11–14.) Therefore, Plaintiff fails to state
a claim for relief because, as a matter of law, she is
not entitled to the relief she seeks from the
Defendants in her complaint. (Reconsideration
Decision at 4 (citing Bd. of Educ. of Pawling Cent.
Sch. Dist. v. Schutz, 290 F.3d 476, 484–485
(2002))("The Second Circuit has unequivocally held
that, when a parent challenges the adequacy of a
school district's proposed placement (in this case P.S.
92), the proper pendency placement for the child is
the private school that was deemed appropriate by
the Independent Hearing Officer ("IHO") in a prior
academic year (in this case iHOPE).").)4

NYSED also argues that it is not a proper party to this case
because "Plaintiffs issue is with NYC DOE, not with [NYSED];
relief, if warranted, would be provided by NYCDOE, not
[NYSED]." (Mem. of Law in Supp. of the State Educ. Dept.'s
Mot. to Dismiss the Compl. ("NYSED's Mem."), ECF No. 19, at
8.) As an initial matter, this Court has already determined that
Plaintiff’s complaint fails to state a cause of action against any
defendant. Furthermore, NYSED is correct that "[a]s numerous
cases have held, New York State, its agencies, and officers are
not proper defendants in an action, such as this one, seeking
judicial review of an administrative decision under the IDEA."
(NYSED's Mem. at 8 (citing YD. v. N.Y.C. Dept. of Educ., No.
14 Civ. 1137 (LTS), 2016 WL 698139 at*5 (S.D.N.Y. Feb. 9,
2016) ("[T]he IDEA only authorizes a right of action with
respect to a local educational authority's alleged failure to
provide a prospective plaintiff with a FAPE. The SED is not a
participant in the IEP process; it is merely a reviewer. ...
Courts have therefore consistently held that the IDEA's private
right of action does not authorize claims against State agencies
that are rooted in the State's general supervisory role under
the IDEA.").)
4

A41
III. CONCLUSION
Both Defendants' 12(b)(6) motions to dismiss the
complaint for failure to state a claim, ECF Nos. 17
and 60, are GRANTED.
The Clerk of Court is instructed to close the
motions accordingly.
Dated: New York, New York
May 31, 2019
SO ORDERED.
/S/
GEORGE B. DANIELS
United States District Judge

A42
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 22nd day of
June, two thousand twenty.
________________________________________
Rosa Elba Ventura de Paulino, Individually and as
p/n/g of R.P.,
Plaintiff - Appellant,
v.
New York City Department of Education, New York
State Education Department, Defendants Appellees,
Robert Briglio, Defendant.
_____________________________________
ORDER
Docket No: 19-1662
Appellant, Rosa Elba Ventura de Paulino, filed a
petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined
the appeal has considered the request for panel
rehearing, and the active members of the Court have
considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

